No.

IN THE
SUPREME COURT OF THE UNITED STATES

Charles Givens - PETITIONER
vs.
State of Florida - RESPONDENT(S)
PROOF OF SERVICE

/mV is

I, Charles Givens., do swear or declare that on this date,
2021, as required by Supreme Court Rule 29,1 have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS AND PETITION FOR A
WIRT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other persons required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
*Not
for
pro
required
individual(s)

se

I declare under penalty of perjury that the foregoing is true and correct.
Executed on
, 2021

(Signature)

incarcerated

